<html>
<title> - ENERGY AND GLOBAL WARMING SOLUTIONS FOR VULNERABLE COMMUNITIES</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Publishing Office]


 
     ENERGY AND GLOBAL WARMING SOLUTIONS FOR VULNERABLE COMMUNITIES 

=======================================================================

                                HEARING

                               before the
                          SELECT COMMITTEE ON
                          ENERGY INDEPENDENCE
                           AND GLOBAL WARMING
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 18, 2007

                               __________

                           Serial No. 110-14


             Printed for the use of the Select Committee on
                 Energy Independence and Global Warming

                        globalwarming.house.gov

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

58-148 PDF                       WASHINGTON : 2010 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 




















                SELECT COMMITTEE ON ENERGY INDEPENDENCE
                           AND GLOBAL WARMING

               EDWARD J. MARKEY, Massachusetts, Chairman
EARL BLUMENAUER, Oregon              F. JAMES SENSENBRENNER, Jr., 
JAY INSLEE, Washington                   Wisconsin, Ranking Member
JOHN B. LARSON, Connecticut          JOHN B. SHADEGG, Arizona
HILDA L. SOLIS, California           GREG WALDEN, Oregon
STEPHANIE HERSETH SANDLIN,           CANDICE S. MILLER, Michigan
  South Dakota                       JOHN SULLIVAN, Oklahoma
EMANUEL CLEAVER, Missouri            MARSHA BLACKBURN, Tennessee
JOHN J. HALL, New York
JERRY McNERNEY, California
                                 ------                                

                           Professional Staff

                     David Moulton, Staff Director
                       Aliya Brodsky, Chief Clerk
                 Thomas Weimer, Minority Staff Director


















                            C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Edward J. Markey, a Representative in Congress from the 
  Commonwealth of Massachusetts, opening statement...............     1
    Prepared statement...........................................     3
Hon. F. James Sensenbrenner, Jr., a Representative in Congress 
  from the State of Wisconsin, opening statement.................     5
Hon. Earl Blumenauer, a Representative in Congress from the State 
  of Oregon, opening statement...................................     5
Hon. Hilda Solis, a Representative in Congress from the State of 
  California, opening statement..................................     6
Hon. Emanuel Cleaver II, a Representative in Congress from the 
  State of Missouri, opening statement...........................     7

                               Witnesses

Mr. Martin Luther King III, C.E.O., Realizing the Dream, Inc.....     8
    Prepared Testimony...........................................    11
Dr. Eileen Gauna, Professor, University of New Mexico............    14
    Prepared Testimony...........................................    17
    Answers to submitted questions...............................    49
Mr. Mike Williams, Board Member, National Tribal Environmental 
  Council........................................................    21
    Prepared Testimony...........................................    23
Mr. Amjad Abdulla, Assistant Director General, Ministry of 
  Environment, Energy and Water, Government of the Republic of 
  Maldives.......................................................    27
    Prepared Testimony...........................................    30


     ENERGY AND GLOBAL WARMING SOLUTIONS FOR VULNERABLE COMMUNITIES

                              ----------                              



                       THURSDAY, OCTOBER 18, 2007

                  House of Representatives,
        Select Committee on Energy Independence and
                                            Global Warming,
                                                    Washington, DC.
    The committee met, pursuant to call, at 11:05 a.m. in Room 
1100, Longworth House Office Building, Hon. Edward J. Markey 
[chairman of the committee] presiding.
    Present: Representatives Markey, Blumenauer, Inslee, Solis, 
Cleaver, Hall, McNerney, Sensenbrenner and Sullivan.
    Staff present: Mitchell Robinson.
    The Chairman. Good morning. This hearing is called to 
order.
    When we think of the communities most vulnerable to global 
warming, images of physical devastation come to mind: gulf 
coast cities washed away by increasingly intense hurricanes, 
Alaskan villages slipping into the ocean without sea ice to 
protect them from winter storms, and low-lying islands and 
coastal areas slowly losing ground to rising sea levels.
    These physical vulnerabilities are serious, but as we will 
hear from our witnesses today, communities around the world 
face a variety of challenges from global warming and our 
dependence on fossil fuels. The price of oil is once again 
breaking records. With the American economy already shaky from 
the mortgage crisis, some analysts believe a prolonged oil 
spike could tip the economy over into a recession, sending 
America reeling from oil speculators, OPEC and oil addiction.
    Rising oil and gasoline prices affect all American 
families, but it is especially acute for the working poor. For 
a family owning one car, making $20,000 a year, $3 per gallon 
of gasoline consumes almost 9 percent of its annual income 
alone. Adding in the other energy costs raises their fossil 
fuel bill even further. And while we are paying more for fossil 
fuels, the global warming caused by their combustion can 
undermine parts of the economy in the United States and around 
the world.
    A University of Maryland report released earlier this week 
found that economic impacts of climate change will occur 
throughout the United States, and that the negative impacts 
will outweigh the benefits for most sectors that provide 
essential goods and services to society.
    Today we will learn how the health of the economy of the 
Maldives is dependent on the health of their coral reefs.
    Our reliance on fossil fuel may be hard on the wallet, but 
the costs do not stop there. Over 70 percent of African 
Americans and 50 percent of Latinos live in counties that 
violate Federal air pollution standards. And unsurprisingly, 
they have higher prevalence of asthma and other debilitating 
lung diseases. This adds up to substantial costs in terms of 
health care and lost days at school and work.
    Just as our reliance on fossil fuels poses physical, 
economic and health threats, the alternatives will reduce 
pollution harmful to the health of people and the planet and 
will create new jobs and energy savings for consumers. This is 
precisely why the new direction Democratic Congress has put an 
energy bill which no longer looks to fossil fuels asthe favored 
fuels, but rather leads us in a new direction towards renewable 
electricity, energy efficiency and biofuels.
    In combination with its counterpart in the Senate, by 2030 
this new energy bill has the potential to save more than twice 
the amount of oil we currently import from the Persian Gulf, to 
reduce U.S. global warming pollution by up to 40 percent of 
what we need to do to save the planet, and create over 1.5 
million jobs. By including Representative Solis' green jobs 
legislation, the energy bill will also provide the tools and 
the resources to train the workers needed to bring the green 
revolution to all communities.
    This fall Congress has an opportunity to pass an energy 
bill that will make a significant contribution to our global 
warming goals, reduce the energy and health bills of American 
families, and create jobs in communities that need them the 
most. We are already seeing the effects of our intertwined 
energy and global warming challenges in vulnerable communities 
across our Nation and world. However, this crisis will not 
exclusively target our most vulnerable. They may be the first 
to feel the impacts, but in no way will they be the last. 
Without strong and consistent energy and global warming 
policies that look to improve our Nation and world's energy and 
environmental future as a whole, we will find all of our 
communities vulnerable.
    Today we have an opportunity to hear the representatives of 
communities already feeling the impact of global warming and 
our reliance on fossil fuels and the impact that that has upon 
them as well and a chance to learn from them what policies 
would most help their communities meet these challenges. I look 
forward to the testimony from our witnesses. And I now turn to 
recognize the Ranking Member of the select committee, the 
gentleman from Wisconsin, Mr. Sensenbrenner.
    [The prepared statement of Mr. Markey follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Sensenbrenner. Thank you very much, Mr. Chairman. 
Today's hearing will focus on the plight of those who are in 
the path of nature. From the coastlines of the Gulf of Mexico 
to erosion in Alaska to rising seas around the Maldives, these 
problems are real and threaten real people. And like many on 
this panel, I have concern for those people whose homes and 
livelihoods are being affected by this change in nature.
    But I am also concerned that today's hearing will do little 
to offer constructive and realistic solutions to these 
problems. Rising waters may well be an effect of global 
warming, but just how can we get these waters to recede? The 
answer many will offer today is regulation, regulation and more 
regulation. It is as if some people believe that government 
regulation and taxes will have the same gravitational pull on 
the oceans that the moon does. They don't.
    As we look for ways to address the global warming problem, 
we are looking for ways to produce energy and to power 
transportation without emitting CO<INF>2</INF>. It is my hope 
that researchers can soon develop the kinds of breakthrough 
technologies that will allow people all over the world to enjoy 
clean, cheap energy. New energy and transportation technologies 
have the potential to lower energy costs,improve the 
environment and end the world's reliance on unstable countries for 
energy fuels. That is the type of win-win solution that Republicans, 
like me, are seeking.
    It seems that many people believe that by enacting 
regulations, the work on global warming will be complete, and 
that the waters will miraculously ebb. They won't. As we 
already have seen, regulations have done little to lower the 
CO<INF>2</INF> emissions in Europe, with one recent report 
showing so far all of Europe's extreme regulatory efforts have 
actually led to a 1 percent rise in emissions. Additionally, 
anecdotal evidence shows that aside from some outfits that sell 
carbon credits, the regulations aren't doing much to help 
Europe's economy either. It goes without saying that the 
European regulations are doing nothing to help keep water 
levels down.
    I do not wish to make light of the dangers faced by 
communities which are in the path of nature, but I do not think 
that regulatory measures that make energy much more expensive 
are the answer that will save places like the Maldives. My 
concern is that by enacting tough cap-and-trade regulations 
without having the needed developments in energy technology, we 
will see dramatic rises in energy prices that will threaten the 
jobs and the economy of not just the poor, but everyone. My 
fear is that in 100 years, people in this country will still 
continue to battle high energy prices, while people in the 
Maldives will continue to battle high water levels. That is 
what I call a lose-lose scenario, and Congress should seek to 
avoid it.
    And I yield back the balance of my time.
    The Chairman. The gentleman's time has expired.
    The chair recognizes the gentleman from Oregon, Mr. 
Blumenauer.
    Mr. Blumenauer. Thank you, Mr. Chairman.
    And I do appreciate what my friend from Wisconsin talked 
about. I do think we are interested in breakthrough 
technologies to the extent that they are available. But the 
irony is that we don't have to wait for breakthrough 
technologies. We know what to do in terms of reducing energy 
consumption. We know what to do in terms of having global 
cooperation. Our friends in Europe already have half the 
CO<INF>2</INF> emissions that we have, and the people in the 
Maldives, it is one-tenth of our emission levels, yet they are 
very likely to be paying the price first.
    I appreciate the opportunity to hear firsthand from folks 
who have the perceptive notion of helping us understand the 
pressures that are being faced. And it is not just the poor in 
remote areas. We have already seen what has happened to the 
poor in New Orleans with Katrina.
    I have here something which was just given to me today 
about--from New York: What if New York City were hit by a 
Category 3 hurricane? What if the most densely residential city 
in the country loses hundreds of thousands of homes in a few 
hours? The reconstruction, where people will live, these are 
very real problems for people at home and abroad. And I am 
looking forward to the discussion here today to have a better 
sense of urgency, which is lacking, I am afraid, with this 
administration and too many people in this Congress.
    Thank you, and I yield back.
    The Chairman. Great. The gentleman's time has expired.
    The gentlelady from California, Ms. Solis, is recognized.
    Ms. Solis. Thank you, Mr. Chairman.
    And I want to also welcome our witnesses this morning. I 
think it is highly important that we hear from underrepresented 
communities and communities of colorbecause for many, many 
years the environmental movement hasn't always brought about the 
concerns of our communities. And therefore, I think that this is a 
first good step working towards that initiative to try to be as 
inclusive as we can, because global warming and the effects that it 
will have impact disproportionately low-income communities even in more 
harsher terms than we even know. And I can testify to that as having 
grown up in parts of Los Angeles County where in a district that I 
represent we have three Superfund sites. We have water that is 
contaminated through rocket fuel. We have high levels of smog that we 
are experiencing, and therefore are seeing higher incidence of asthma 
rates, higher rates of cancer, and also the mortality rates of many of 
our young people as well as our adults, our seniors are faced with.
    If we don't begin to address this issue of climate change 
and how it affects urban centers, but also rural communities, I 
think that we are really going to be leaving a lot of people 
out of this discussion. And I am very proud to serve as a 
member of this committee to be able to talk and hopefully 
amplify the voices that you witnesses here today bring to the 
table.
    You know, in a community like mine, Latinos don't often 
have the luxury of working in even communities where their 
environment is safe. And I mean safe in terms of health effects 
because of pollutants in the air, because maybe the proximity 
where they live is close to a freeway. In fact, many of the 
school districts that I represent are no more than one-half 
mile from a freeway where, you know, the exhaust from our cars 
and our diesel trucks are just continuing to spew these 
CO<INF>2</INF> emissions. And it is having an effect because 
you see it in the costs that we are paying in health care and 
in trauma centers, and you see it afflicting not just people of 
color, but people who are trying to make a living, middle-
income individuals who are also having to face up to what is 
happening to them.
    In the State of California, we have been plagued with 
droughts, very hot summers. We have many of our local 
communities that are now self-imposing mandatory conservation 
efforts, and that is just one part of it. But when you tell a 
family, a working family, that they now have to pay $3.50 to 
get to work, and then know that they have no health insurance, 
and when they come home at night in that community that they 
are still faced with many more hardships just trying to put 
food on the table, something has to be done. So I would just 
say I am grateful that you are all here and look forward to 
your testimony.
    Thank you, Mr. Chairman.
    The Chairman. The gentlelady's time has expired.
    The Chair recognizes the gentleman from Missouri, Mr. 
Cleaver.
    Mr. Cleaver. Thank you, Mr. Chairman.
    I really appreciate this hearing for some very personal 
reasons. I spent my teenage years growing up in Wichita Falls, 
Texas. I lived at 818 Gerald. I want to be very specific. And I 
didn't know that there was such a thing as living a great 
distance from what we called at the time the cesspool, which 
was the waste treatment plant, probably less than 300 yards 
from our back door. And then about 600 yards away was the city 
landfill. Anytime we had a strong wind blowing across north 
Texas, which happened quite a bit, the whole tone of our 
community changed. People would stay inside because of the 
odor. And we took for granted--you know, I don't think anybody 
can go back and figure out how many people have died as a 
result of pollutants in the air, but they would be 
considerable.
    And then just 3 months ago--almost 4 months ago, Jimmy 
Rainey ran from the living room of his home with only his 
underwear, trying to get his inhaler to work. He died on the 
front lawn of his home. And I spoke at his funeral.
    I began to look at all of the numbers of AfricanAmericans 
and Latinos in urban areas dying of asthma. And then I can't help but 
think about the funerals in my hometown at the time I grew up. And then 
I began to look at this issue, find out that according to the National 
Law Journal, communities of color take about 20 percent longer to 
qualify for either the Superfund or to have any kind of remediation in 
their communities of what is clearly environmental injustice.
    The movement began in the 1980s. I am not sure there was 
much participation even then by the minority communities, so 
this gives me an opportunity not only to talk about the issue, 
but hopefully figure out ways--no one benefits by having a 
hearing without learning something and then trying to fashion 
solutions. This is not an intellectual issue for me. It is 
real. I know human beings who have died. I have friends who 
have died. And asthma is running rampant in every urban 
community in this Nation, and everybody who has an ounce of 
concern ought to be angry.
    I appreciate you calling this hearing, Mr. Chairman.
    The Chairman. I thank the gentleman from Missouri very 
much.
    And we will now turn to our very distinguished panel. And 
our first witness, Martin Luther King, III. He is the Chairman 
and CEO of Realizing the Dream, Inc. Through the work of his 
new organization, he is working to restore and revitalize our 
communities and democracies around the world.
    Mr. King currently is holding a looking, listening and 
learning tour where he is studying the causes of poverty in 50 
selected communities. This summer he also helped organize the 
sons and daughters of many of the 20th century's world-renowned 
leaders in an unprecedented peace summit to launch the Gen II 
Global Peace Initiative. The mission of the new initiative is 
to use their collective strength to take action through 
nonviolent tangible steps to address instances of conflict and 
injustice worldwide.
    Mr. King, we look forward to your testimony. Whenever you 
are ready, please begin.

 STATEMENT OF MARTIN LUTHER KING, III, CEO, REALIZING THE DREAM

    Mr. King. Thank you, Mr. Chairman. Chairman Markey and 
members of the committee, thank you for the invitation to speak 
today. As the first son of Dr. Martin Luther King, Jr., Coretta 
Scott King, both of whom were human rights activists, I have 
been involved in significant humanitarian and policy 
initiatives, whether as a Presidential appointee to promote 
peace in foreign countries or as president of two of the 
Nation's most recognizable civil and human rights 
organizations. I am, as was stated, CEO and founder of 
Realizing the Dream, currently a nonpartisan organization that 
seeks to continue and advance the legacy and work of my 
parents.
    Realizing the Dream seeks to give a stronger voice to the 
economically disadvantaged and to foster the elimination of 
poverty in America. Recently I have been conducting a looking, 
listening and learning tour to study the causes of poverty in 
50 selected communities throughout the United States of 
America. I have completed tours of 35 communities, including 
three Native American reservations, communities across 
Appalachia and the gulf coast, as well as both urban and rural 
America.
    Forty years have passed since my father's death, but his 
concerns about inequality and deprivation are at least as 
topical today as they have been in the past. Thirty-eight 
million Americans live below the official poverty line, the 
highest rate among developed countries. This number has 
increased by 4 million people over the last 4 years, the entire 
size of the State of Kentucky. Todayhis words still provide 
hope and inspiration to all of us, a resounding echo of the moral 
leadership that has at critical junctures of our Nation's history 
lifted America to a higher place.
    In 1964, upon winning the Nobel Prize, my father said, 
``Granted that we face a world crisis which leaves us standing 
so often amid the surging murmur of life's restless sea. But 
every crisis has both its dangers and opportunities. It could 
spell either salvation or doom.''
    Today a new world crisis looms, one that we knew little 
about 40 years ago. Last week the Nobel Peace Prize was awarded 
to former Vice President Al Gore and to a panel of 2,000 
scientists who have been lifting our veil of ignorance on the 
global warming crisis. There is a bridge between this crisis 
and that which my father confronted because both require a new 
paradigm of moral courage and leadership.
    In this climate crisis, I, too, see both opportunity and 
danger, and I am hopeful that we can find our salvation. I am 
here today to tell you that global warming is a form of 
violence upon the most vulnerable among us and to ask for you 
to step forward and to protect those in need. Obviously I am 
not a scientist or an expert on global warming, but I listen to 
those experts, and I listen to the people in communities across 
this Nation who are concerned about the health and safety of 
those families, of their families.
    To lift families from poverty, we need to empower people to 
take charge of their lives and the life of their communities. 
Global warming and other environmental threats erode that 
power. The poor are victims of choices made by corporations 
over which they have no say, and Congress needs to protect all 
Americans from the threats that are being created.
    Earlier this year the scientific panel that last week won a 
share of the Nobel Prize released reports compiling the 
consensus views of thousands of scientists and agreed to by the 
nations of the world, including the United States. I want to 
point to a statement by the chairman of that panel, the 
Intergovernmental Panel on Climate Change, who said, it is the 
poorest of the poor in the world, and this includes poor people 
even in prosperous societies, who are going to be the worst 
hit.
    According to the IPCC report, hundreds of millions of 
people are vulnerable to flooding due to sea level rise. The 
human suffering from Hurricane Katrina serves as vivid 
testimony to all of us of the vulnerability of the poor to 
severe weather events and floods. The scientific report in many 
ways echoes the findings of a landmark report by the 
Congressional Black Caucus Foundation from 2004 titled African 
Americans and Climate Change: An Unequal Burden. The caucus 
report concluded that African Americans will disproportionately 
bear the substantial public health burden caused by climate 
change. According to the report, African Americans are nearly 
three times as likely to be hospitalized or killed by asthma as 
others, with climate change expected to worsen air pollution 
and increase the incidence of asthma for our children.
    When disaster strikes, the poor are left in harm's way. As 
one illustration, according to the Congressional Black Caucus 
report, African Americans are 50 percent more likely than 
others to be uninsured.
    I want to be clear, however, that global warming is a dire 
threat for all of the nations and the world's poor. As was the 
case 40 years ago, what appeared to many Americans to be mostly 
an African American issue still today concerns the whole 
Nation. Poverty in America today affects all races. The 
majority of the poor are white, not African American or 
Hispanic. We are all in the struggle together, poor or rich, 
black or white.
    While global warming is a crisis, it is not a cause for 
despair. I am filled with hope. Every generation has had to 
tackle threats of magnitudes that are almost unimaginable to us 
today. Global warming has been ignored for far too long, and it 
is time for our generation to step forward. Solving global 
warming can help lift the poorest among us and provide new 
economic opportunities. Global warming isfueled by our 
dependence on dirty energy fuels that assail our health and drain our 
wallets. The pathway to solving global warming is a pathway to safer 
communities for our children and better economic opportunities.
    I would like to lend my support to the testimony of Van 
Jones, president of the Ella Baker Center for Human Rights, who 
came before this committee in May. He outlined a national 
commitment to green-collar jobs that will give ordinary 
Americans a shot at lifelong careers in the growing clean 
energy economy.
    As Congress crafts an action plan on global warming, we 
must also look to the economic impacts of the plan on the poor, 
the financial resources to provide economic opportunity and 
avoid economic burdens that are at hand if it embraces the 
principles that industrial polluters should bear primarily the 
financial responsibility for their actions. When designing an 
emissions trading system for greenhouse gases, Congress should 
invest revenues from polluters' payments to help the poor be a 
part of the solution and to protect those who are least able to 
afford the cost of cleaning up. We all need the moral courage 
to rise above the complacency, to rise above the injustice and 
to rise above the political differences that have led us to 
turn deaf ears to this crisis again and again and again.
    I conclude by asking, who among us will aspire to the 
opportunity and salvation that lies within the climate crisis? 
Where are the voices of hope today in America? Who among us 
will stand up and lift our children and the poorest among us 
from the impacts of a crisis not of their making? Who here in 
Congress will lead this fight and put aside the whispering of 
those who fear change?
    The energy bill that the House has passed is a strong first 
step. Congress needs to pass a bill with the best parts of both 
the House and Senate version, and it must not stop there, but 
keep pressing forward even more comprehensive solutions.
    Chairman Markey, I appreciate your leadership on these 
matters and the work of other committee members. There are many 
leaders among you. I ask you all to work together to lead and 
look forward to supporting your efforts. Thank you.
    The Chairman. Thank you, Mr. King, very much.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Our second witness is Dr. Eileen Gauna, who 
is a law professor at the University of New Mexico with a focus 
on environmental law, environmental justice, administrative 
law, and energy and property. She is one of the country's 
foremost experts on environmental justice and has written about 
and worked extensively on the issue. She is also a member of 
the EPA's National Environmental Justice Advisory Council.
    Dr. Gauna, we welcome you. Whenever you are ready, please 
begin.

 STATEMENT OF EILEEN GAUNA, PROFESSOR, UNIVERSITY OF NEW MEXICO

    Ms. Gauna. Thank you, Chairman Markey. One correction, I am 
no longer a present member of NEJAC. I completed my term, one 
of my several terms.
    But thank you for your invitation to testify before the 
committee today. Your work on energy independence and climate 
change is complex and is urgent. And I am really encouraged 
that you are not falling prey to this urgency by ignoring the 
effects of new energy policies on our most vulnerable 
communities. That single focus in the past has led to poor 
communities and communities of color bearing notonly the brunt 
of increased exposures, but an increased risk of accidents, 
insufficient energy and emergency infrastructure, degradation of 
national resources and other environmental disamenities, noise, dust, 
odors, light pollution.
    My work has taken me to many stressed communities 
throughout the United States where you can really vividly see, 
hear, smell, taste the result of our lack of comprehensive 
policies on industrialization waste disposal and energy supply. 
It is a long and neglected problem, and it is encouraging to 
see it being addressed at this level.
    Your committee also seeks to do more. As shifting energy 
policies create new opportunities, you are attempting to ensure 
that poor and vulnerable communities share in those 
opportunities, but because of the complexity of the problem, 
there are pitfalls, and there is a risk for unintended 
consequences along the way. And it is a few of those discrete 
unintended consequences I would like to use my time to address 
today.
    In the process of retooling our energy infrastructure, we 
are going to undoubtedly encounter significant siting issues. 
We need renewable sources such as wind farms, waste energy 
plants, biofuel production facilities, more high-voltage 
transmission lines. We need more production facilities for 
solar panels or other equipment to build a newer, greener 
energy supply. Then there are other forms of energy supply 
presently under consideration, such as nuclear power plants, 
coal-fired power plants with carbon capture and sequestration 
capacity, more imported liquefied natural gas, all cleaner from 
a global warming perspective, but the processes themselves may 
carry significant risks.
    If there is no thought on the front end to where these 
facilities and how they will be sited, there is going to be 
chaos at the back end. This is not good for utility companies, 
communities or domestic ecosystems that are more vulnerable to 
climate change effects. And it is not good for energy security 
and independence.
    Let me give you one quick example. We recently launched a 
concerted campaign to increase importation of liquefied natural 
gas by adding about 40 or 50 facilities to our existing 5. If 
you take a look at the FERC Web site, you will see a map of the 
existing and proposed LNG facilities. Now take a look at the 
Web site of this select committee, and see the locations that 
are predicted to sustain the greatest impact from global 
climate change. The facilities are literally right in the eye 
of the coming storms. You can see that the gulf coast, heavily 
populated by poor and people-of-color communities, will receive 
the lion's share of these facilities, especially as 
communities' and State opposition elsewhere remains fierce.
    What you see is an emerging pattern of racial disparity, 
and as we have learned from the present disparities and spatial 
location of hazardous waste facilities and high emitters, 
commonly called TRI facilities, these disparities, once formed, 
become intractable.
    Can a new, more comprehensive energy policy avoid this? It 
can. And it will be fair and more efficient over the long term. 
As we think about the new physical machinery of our clean 
energy infrastructure, we need to provide adequate protection. 
Federal legislation can and should protect vulnerable 
communities by avoiding increasing impacts on communities that 
are already heavily burdened. The experiments in brownfields 
redevelopment has taught us that this is not the death knell 
for high-impact projects. Quite the contrary. When potentially 
impacted communities are brought into the process at a very 
early time, many impacts can be minimized or avoided 
altogether, and communities are more likely to support the 
process if they are included in it, and if they are given 
resources to independently review that project.
    As some development attorneys can attest and often do, the 
projects that have been least successful are those where 
project sponsors have tried to avoid legal requirements and 
short cut the permitting process. In the long term itdelays 
projects.
    My written testimony has specific information as to how 
this can be done. I want to stress, it is not to suggest a 
complete facility moratorium in vulnerable communities, but 
rather to suggest that vulnerable communities should not 
receive the highest-impact facilities and the lowest-paying 
jobs. With relatively small investment in job training and 
commonsense siting and permitting criteria, we can create an 
equitable and efficient clean energy infrastructure.
    In protecting vulnerable communities, another matter is 
that we should avoid the temptation to grandfather existing 
facilities in new legislation. The proliferation of new coal-
fired power plants, about 150 of them, in anticipation of more 
stringent climate change legislation should not be rewarded 
down the line. We may yet be witnessing yet another disparity.
    Experience teaches us that regulatory agencies often 
narrowly construe their legal authorities when asked to provide 
protections for vulnerable communities. These communities are 
left suffering impacts that could have clearly been avoided. A 
simple requirement that impacts to vulnerable communities 
should be avoided, minimized or mitigated to the extent 
feasible together with the requirement for an alternative site 
analysis can go a long way to inject common sense and 
protectiveness into the process.
    As pedestrian as siting and permitting issues may appear to 
some, especially in the face of the urgency of climate change, 
this much we should remember. This is the single biggest issue 
for these vulnerable communities. They are assaulted by 
staggering pollution loads. Our regulatory regime is not 
equipped to handle cumulative risks or synergistic effects. It 
is not designed or adequately funded and equipped to address 
multiple stressor situations. Let's not add to this problem. It 
is our ethical duty----
    The Chairman. Professor, if you could try to sum up.
    Ms. Gauna. I am finishing up.
    It is our ethical duty to do all we possibly can to roll 
back and avoid climate change. It is our ethical duty not to do 
so on the backs of heavily impacted and vulnerable communities.
    Thank you, Mr. Chairman. Sorry for running over.
    The Chairman. Thank you, Professor, very much.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Our next witness is Mr. Mike Williams. Mr. 
Williams is a member of the Yupiaq Tribe from Akiak, Alaska and 
Iditarod race musher. Throughout his life he has strived to 
protect the livelihood and culture of Native villages across 
Alaska. Currently he is vice chairman of both the Akiak Native 
community and the Alaska Inter-Tribal Council, which represents 
229 tribes in Alaska. He is also vice president of the National 
Congress of American Indians, Alaska Region, and Board member 
for National Tribal Environmental Council.
    We welcome you, sir. Whenever you are ready, please begin.

STATEMENT OF MIKE WILLIAMS, VICE CHAIRMAN, ALASKA INTER-TRIBAL 
                            COUNCIL

    Mr. Williams. Mr. Chairman and members of the committee, it 
is an honor to testify before you today. My name is Mike 
Williams. I am a Yupiaq, real people, from Akiak, Alaska, 
located on the Kuskokwim River. Currently I am vice chairman of 
the Akiak Native community, a federally recognized tribe, and I 
also serve as the vice chairman for the Alaska Inter-Tribal 
Council, which consists of 229 federally recognized tribes in 
Alaska. In addition, I amvice president for the National 
Congress of American Indians, Alaska Region, and Board member for 
National Tribal Environmental Council.
    Global warming is undermining the social identity and 
cultural survival of Alaskan Natives and American Indians. As 
we watch our ice melt, our forests burn, our villages sink, our 
sea level rise, our temperatures increase, our oceans acidify, 
our lakes dry, and our animals become diseased and dislocated, 
we recognize that our health and our traditional ways of life 
are at risk. Our elders, in particular, are deeply concerned 
about what they are witnessing.
    In Alaska, unpredictable weather and ice conditions make 
travel and time-honored subsistence practices hazardous, 
endangering our lives. According to the U.S. Corps of 
Engineers, at least three tribes in Alaska must be moved in the 
next 10 to 15 years, Shishmaref, Kivalina and Newtok, while 
according to a GAO report, over 180 communities are at risk.
    Throughout the Nation in Indian country, traditional foods 
are declining, landscapes are changing, rural infrastructure is 
being challenged, soils are drying, the lake and river levels 
are declining. Tribes are experiencing droughts, loss of 
forests, fishery problems and increased health risks from heat 
strokes and from diseases that thrive in warmer temperatures. 
Clearly global warming represents one of the greatest threats 
to our future and must be addressed by Congress as soon as 
possible.
    There are many economic opportunities for Alaska Natives 
and American Indians in a low-carbon future, especially with 
respect to renewable energy. Tribes offer some of the greatest 
resources for helping the Nation with renewable energy 
development, particularly wind, solar power, biomass and 
geothermal power.
    In Alaska, for example, we are installing wind power in 
very remote communities such as Tooksok Bay, St. Paul Island 
and Kotzebue. Wind power has also been installed on the Rosebud 
Sioux Indian Reservation. Port Graham Village is assessing 
construction of a biomass facility using forestry waste. The 
Confederated Tribes of the Warm Springs Reservation has 
analyzed the viability of a commercial geothermal power plant. 
Also NativeSUN Solar has installed hundreds of systems on the 
Navajo and Hopi reservations.
    To achieve Indian Country's and Alaska's renewable energy 
potential, however, we need investment capital, infrastructure 
and technical capacity. Any renewable energy program must 
include opportunities and incentives for tribes. Also with 
training, American Indian and Alaska Native youth and adults 
can actively engage in renewable energy jobs from engineering 
to manufacturing to installation.
    There are also economic opportunities associated with 
energy conservation. We would welcome tribal-based initiatives 
to better insulate our homes, to convert our lighting and to 
educate our members regarding energy-efficiency practices. We 
want jobs that save us money and reduce our carbon footprint. 
In general, we believe a low-carbon economy will provide 
multiple local benefits by decreasing air pollution, creating 
jobs, reducing energy use and saving money.
    With respect to adaptation, communities like Newtok, 
Alaska, are already taking action to move from dangerous sites 
to higher ground. It is important for Congress to recognize 
that the adaptation needs are very great. We require planning 
assistance, Federal coordination and significant financial 
resources to educate these crucial relocations and to fund 
other adaptation needs.
    In recognition of this tremendously serious situation that 
global warming poses to American Indians and Alaska Natives, 
our most important organizations have passed urgent resolutions 
outlining problems, threats and needed action by Congress, 
including the Alaska Inter-Tribal Council, the Alaska 
Federation of Natives, over 100 Alaska Native entities and 
National Congress of American Indians. I have submitted all of 
these resolutions to the committee with mywritten testimony.
    In summary, Mr. Chairman, Alaska Natives and American 
Indians are being seriously threatened by global warming. We 
implore Congress to protect current and future generations by 
documenting the extensive costs of global warming to tribes, 
reducing greenhouse gas emissions, and helping those 
communities like Shishmaref that need to be moved, repaired or 
otherwise assisted because of the adverse impacts of global 
warming.
    There is so much at stake. For the sake of our children and 
grandchildren, seven generations and beyond, Congress must take 
meaningful action to address this issue now. This is our most 
and sincere and urgent plea.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Mr. Williams, very much.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. And our final witness is Mr. Amjad Abdulla, 
who is Assistant Director General of the Ministry of 
Environment, Energy and Water for the Republic of Maldives. As 
Assistant Director General, he has brought to light many of the 
effects of global warming on his country and is actively 
working with the United Nations to find solutions for the 
Maldives and the world to the challenges presented by global 
warming. As we know on the committee, the effects 2 years ago 
of the tsunami on the Maldives was to basically have a 
profoundly negative impact on 80 percent of its economy as that 
water just washed over the entire country.
    So we thank you, Mr. Abdulla. Whenever you are ready, 
please begin.

    STATEMENT OF AMJAD ABDULLA, ASSISTANT DIRECTOR GENERAL, 
  MINISTRY OF ENVIRONMENT, ENERGY AND WATER, THE REPUBLIC OF 
                            MALDIVES

    Mr. Abdulla. Thank you, Mr. Chairman, distinguished 
Representatives. May I begin this morning by thanking you for 
the invitation to offer testimony to this important gathering.
    I am honored to share the floor today with the noted human 
rights activist Mr. Martin Luther King, III. In 1963, his 
father, the Reverend Martin Luther King, Jr., stood in front of 
the Lincoln Memorial and delivered one of the most powerful 
speeches of the 20th century, addressing the need for social 
political justice. He said, and I quote, ``We have come to this 
hallowed spot to remind America of the fierce urgency of now.''
    Today, Mr. Chairman, I come before you to speak about the 
immediate and far-reaching impacts of global climate change. I 
come to explain that for the Maldives, this global phenomenon 
represents a crisis that threatens our very existence for us 
and for other vulnerable communities around the world. Failure 
to address this threat will have devastating consequences for 
human rights, homes, livelihoods, and ultimately human lives.
    I have come to this hallowed spot to ask you for your 
political, economic and moral leadership to address climate 
change. I have come to tell you that if you overlook the 
urgency of this moment, it will result in the death of a 
nation, the Maldives, and the loss of vulnerable communities 
around the world.
    Mr. Chairman, distinguished Representatives, climate change 
is the defining issue of our time and the fundamental challenge 
to the 21st century. Moreover, it is not an environmental 
challenge, nor a scientific theory. It is the first and 
foremost human issue. It is already adversely impacting 
individuals around the planet. Due to alterationsof ecosystems, 
the increased incidence of natural disasters, these impacts have been 
observed to be intensifying in frequency and magnitude. The reports by 
the Intergovernmental Panel on Climate Change have established a clear 
scientific consensus and left us in no doubt the magnitude of the 
threat we face. Global warming is real, accelerating and human-induced.
    The review by the eminent former World Bank economist Sir 
Nicholas Stern has demonstrated that unchecked climate change 
would trigger a global recession of enormous proportions, turn 
200 million people into refugees, and precipitate the largest 
migration in modern history as their homes succumb to drought 
or flood.
    As small island states, we in the Maldives are immediately 
and particularly vulnerable to even small changes to the global 
climate. In the recent months, we in the Maldives experienced 
tidal surges on an unprecedented scale. Never in our documented 
human history have so many islands been flooded over 
simultaneously and to such an extent. These surges were a grim 
reminder of the devastating tsunami of 2004 and a dangerous 
warning of future impacts.
    Even today rising ocean temperatures, coupled with 
acidification caused by greenhouse gases, threaten our prized 
coral reefs. These reefs are the mainstay of the tourism and 
fisheries industries and the heart of our economic development.
    Let me briefly mention the geographic composition of the 
Maldives to the distinguished members of the select committee 
for a better understanding of its vulnerability from global 
warming and climate change.
    The Maldives is comprised of approximately 1,190 small 
islands scattered in the Indian Ocean with only 1 percent of 
land and 99 percent of sea. I use approximately because the 
number of islands varies with the tide. Our islands barely 
exceed 1.5 meters above main sea level. As we look to the 
horizon, we fear that the rising sea levels threaten to 
inundate our land and submerge the entire nation.
    We are rising to meet this challenge as best we can. Our 
work focuses on adaptation, international negotiation, public 
diplomacy, and the human dimension of global climate change.
    On adaptation, we have developed a concrete plan of action 
that aims to reduce the exposure of the impacts of global 
climate change. Our national adaptation plan of action, which I 
have submitted in writing to the committee, outlines our most 
immediate initiatives on sea defenses, securing vital 
infrastructures, utilities and so forth. Relocating people from 
smaller vulnerable communities to bigger islands is one of 
them.
    With regard to mitigation, our own carbon footprint is 
minimum; however, we are a vocal advocate for a comprehensive 
framework to replace the Kyoto Treaty. Internationally we are 
leading an initiative in cooperation with other smaller island 
states entitled The Human Dimension of Global Climate Change. 
This initiative is designed to put people back at the heart of 
the issue and highlight the threat climate change poses to 
human rights and human lives. We will convene a conference in 
the Maldives on the 13th of November this year, and I would be 
pleased to elaborate on this further during your questions.
    Mr. Chairman, although the impact of climate change is 
going to be felt first in vulnerable countries, such as the 
Maldives and other low-lying states, it does not end with us. 
The immediate and far-reaching threats reach into every nation, 
every community and every neighborhood on the planet. If we are 
to avoid the devastating effects of climate change, the major 
economic economies must take the lead.
    Action to reduce greenhouse gas emissions presents the 
greatest opportunity to preserve the prospects for future 
prosperity, and the future delay risks irreparable harm to 
sustainable development. We therefore urge the Congress to take 
the lead on reducing emissions and stabilizing greenhouse gas 
concentrations at levels that would restorethe balance of the 
Earth's climate system.
    Technological innovation throughout our economic system 
from energy and transport, construction----
    Mr. Blumenauer [presiding]. Mr. Abdulla, could you 
summarize?
    Mr. Abdulla. Our political system needs to encourage 
greater incentives for investment in clean technologies and 
public regulations to support innovation.
    Mr. Chairman, just to conclude, during the past two 
decades, we have looked for signs of progress, but too often we 
have seen a lack of leadership at the international level. We 
believe this trend is changing. In 2007, we see the signs of 
renewed dynamism and determination.
    Speaking in London in July this year, the President of the 
Maldives, Mr. Maumoon Abdul Gayoom, more than two decades of 
climate change advocacy, he said that there has been a great 
deal of expectations, but ultimately too many missed 
opportunities. In concluding his speech, he said. And I quote, 
``Let us say enough of expectation and promises. It is time to 
deliver. Enough of hesitation. It is now time for bold 
leadership.''
    We thank the committee for your invitation today, and we 
encourage you to strengthen your leadership and maintain your 
current momentum. Thank you.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Blumenauer [presiding]. Thank you, Mr. Abdulla. Our 
Chairman has stepped away. He had about two dozen guests here. 
He will be back in a moment and asked that we proceed.
    I would just note that we are going to be facing a vote 
pretty soon. So I would like to just move quickly. I would just 
ask one question, and then turn to my colleagues.
    Mr. Williams, you painted a pretty significant picture of 
what is facing the Native American community, Alaskan 
corporations. I am wondering if you are aware of any specific 
programs in place at this point that address the concerns of 
Native American populations as it relates to the consequences 
of climate change and adaptation that you referenced.
    Mr. Williams. Right now we are at the crossroads, and many 
of the communities like Shishmaref is falling into the Bering 
Sea, and I think for some village of Newtok is currently 
planning to move into a higher ground, and that, I think, is 
one way of retreating from falling into the sea. And that is 
the only thing that is occurring.
    And what we have been trying to do is involving ourselves 
in trying to address the effects in the north, in the Arctic. 
And we have been involved in trying to have EPA enforce the 
regulations on the automobiles and also the power companies on 
the east coast, because all of these activities affect the 
people in the North. So we are most vulnerable and paying a 
heavy price for the activities in other areas of the world.
    So right now we need capital, we need more resources to 
plan for the future, because my community is going to be in the 
river and in the sea pretty quick if we don't address it soon.
    Mr. Blumenauer. Thank you very much.
    Mrs. Blackburn.
    Mrs. Blackburn. Thank you, sir. I want to welcome all of 
our witnesses before us today.
    Mr. King, I commend you for your listening tour. It sounds 
like it has been instructive.
    Mr. Williams, I think I would like to direct my first 
question to you, if I may. The wind turbines that are being 
installed in Alaska, where is the money coming from for those? 
Do you know?
    Mr. Williams. I think the money is coming from Congress, 
and those, you know, the energy costs, are tremendous in 
Alaska. In my community the price of gasoline is $7. But the 
wind programs in Kotzebue in Tooksok Bay have really reduced 
the 50-cents-per-hour--per-kilowatt-hour problem that we are 
facing in the very poor communities, the poorest of the poor in 
the country.
    Mrs. Blackburn. Let me ask you this also. So on the wind 
turbines you are depending on government grants for that. But 
let me ask you about transporting renewable energy to some of 
these rural and isolated areas. What solutions do you propose? 
Or do you all have any solutions that you are proposing for 
transporting renewable fuels into these rural areas?
    Mr. Williams. I think shipping right now is the way to go, 
you know, because we don't have any roads in our areas. And 
there is no other way to get to those communities. So barges 
and shipping through waterways.
    Mrs. Blackburn. All right. I want to go to page 3 of your 
testimony. You talk there about NativeSUN Solar, which provides 
installation, maintenance, technical support for the 
photovoltaic systems. They have installed hundreds of systems 
on the Navajo and the Hopi Reservations. What is the cost per 
kilowatt hour for solar energy in Alaska? And what do 
residences--an average resident actually pay for electricity 
per kilowatt hour right now? Do you have that information?
    Mr. Williams. Yes. I have--I don't have current data on the 
Navajo and Hopi per kilowatt hour, but in my community, per 
kilowatt hour to pay for our electricity ranges from 50 cents 
to 70 cents per kilowatt hour in our communities in Alaska.
    Mrs. Blackburn. Okay. And then for the solar, can you get 
that number for me?
    Mr. Williams. Right now in Alaska, I think the wind power 
is more viable. And the solar energy--in the wintertime when 
there is 24 hours of no solar, we don't see the sun up North 
for 24 hours for 6 months. It is pretty hard to get that to 
retrieve the solar energy.
    Mrs. Blackburn. Now, on the wind power, let me just ask you 
one follow-on. Has the environmental community expressed any 
concern over the wind turbines and the harmful effects for 
birds? Have you had resistance there?
    Mr. Williams. We have discussed that issue, but we have 
taken a look. And I come from the most populated migratory bird 
area in the world. And we have had those wind turbines going 
and have seen no effect on our migratory birds.
    Mrs. Blackburn. Thank you.
    Mr. Abdulla, the sea level in the Maldives, what has been 
the actual rise of the sea level over the past year?
    Mr. Abdulla. For the sea level, we have had a record of 15 
years, and it shows about a millimeter of rise per year in sea 
level. And to this magnitude, even a small millimeter of the 
sea level, it speeds up the wind-generated waves, and it sort 
of leads to flooding more frequently.
    Mrs. Blackburn. And over the past year, did it remain the 
same, or was there a difference?
    Mr. Abdulla. Well, it has remained the same.
    Mrs. Blackburn. So you continued to see a rise last year?
    Mr. Abdulla. Yes.
    Mrs. Blackburn. Okay. And then how do you deal? How have 
you dealt with the rise in the sea level?
    Mr. Abdulla. Well, due to the sea level rise, I think we 
have--we have initiated a program on relocating people from 
smaller vulnerable islands. As you know, there is no high 
ground in the Maldives. It is all flat. It is about 1.5 meters 
above main sea level. There is no higher grounds where you can 
move in. And the islands are pretty small. And the government 
has initiated relocating small vulnerable communities to bigger 
ones with coastal protection. And that is the only option that 
we can survive as a sovereign state.
    Mrs. Blackburn. Thank you, Mr. Chairman. I yield back.
    Mr. Blumenauer. Thank you.
    The gentlelady from California.
    Ms. Solis. Thank you, Mr. Chairman. I would like to direct 
my questions to Mr. King.
    You mentioned in your discussion a reinvestment fund that 
we could possibly develop through making the polluters 
responsible and paying into this investment fund.
    Could you give me an idea what two components might be a 
part of that critical reinvestment fund? And why is it needed?
    Mr. King. Well, I think the real question is, obviously, 
when it comes to communities of color particularly and those 
who perhaps will be impacted most by what is occurring because 
of global warming, I guess there has to be a balance of some 
kind.
    It would seem that one of the ways, those who are, I guess, 
heavy polluters, if you will--now, what that specifically means 
today, I don't know that I can cite specific examples today. I 
certainly would be able to get something back to you on that.
    Mr. King. But what I think can happen, or I hope can 
happen, or in the past have heard, is that because of these 
large entities that are ultimately--obviously, the solution is 
to create the kind of regulations so that we can begin to 
reduce what we are doing. And, in short, if there is this kind 
of forum that exists, I think--I hope one does not see that as 
putting an undue burden on those business entities.
    But, you know, I know we have got to do something, and that 
is just one suggestion. I can certainly get something 
specifically back to you on that particular issue.
    Ms. Solis. It isn't a foreign concept is, I guess, what I 
want to hear. Because in many cases, the way our current laws 
are supposed to work--Superfund sites, for example, funding 
that we get from polluters is supposed to go back to clean up 
those communities. But we find under current conditions in this 
administration we have been negligent in that cleanup.
    Mr. King. Yes, and particularly, again, as it relates to 
communities of color, where there seems to be a 
disproportionate number of not just Superfund sites; but I 
think there is statistical data that shows that communities of 
color generally are more--I don't want to say more polluters 
are there, but it just seems like a disproportionate number.
    Ms. Solis. Yes, there are a lot more sitings.
    In fact, Professor Gauna, if you could just touch very 
briefly, you talked about setting some policy decisions that 
would actually look at substantive criteria. If you could 
please go over that, because you hit a lot of what I would like 
to see occurring in some of our public policy.
    If you could, be a little bit more specific and just give 
me some idea of how we do that when we are setting our policy.
    Ms. Gauna. Thank you, Congresswoman Solis.
    That really is a, you know, rather technical area, but it 
is not insurmountable. I think that we have models that can 
work, for example, to avoid, minimize, mitigate. Models that we 
see in wetland permitting and other areas where we are 
protecting vulnerable or highly fragile resources could 
actually work in an area of highly impacted communities. Those 
models do contain substantive criteria, where you say--you 
reach a particular point where it really is a public health 
issue.
    You are going to need substantive criteria. That said, I 
think that procedural protections go a long way.
    Very basically, the earlier you get the communities 
involved in the project--the important thing to remember is 
that the communities are the people most intimately awareof the 
surrounding circumstances, especially in a multiple impact area. Often, 
when you get these communities involved very early, they can propose 
solutions that the permitting officials and other public officials tend 
to miss because they don't live in those areas. So procedural criteria 
can go a long way.
    But when we are dealing with highly impacted communities, 
we need substantive criteria. We need legal authority from 
Congress that tells us when it is not advisable.
    Mr. Blumenauer. Thank you very much.
    The gentleman from Kansas City.
    Mr. Cleaver. Thank you, Mr. Chairman.
    Professor Gauna, my concern is--I just have one question. 
Hopefully you can give me some guidance, because we are the 
only nation in the Western world still not admitting climate 
change, which is an embarrassment in itself, but I don't want 
to deal with that embarrassment or try to conceal it.
    But if you look at what happened in the Ninth Ward in New 
Orleans, and realize that if you go down there now you still 
have to put on a mask, because the Ninth Ward, where the poor 
people lived, is also where the landfill was; so in addition to 
the rising waters and the alligators, you had all of the 
contamination from the landfills. In some areas, the ground is 
black.
    The issue is, though, had we not had the flood, I am not 
sure that there would have been any complaints about what was 
going on in the Ninth Ward, because in minority communities, we 
have not been able to generate interest in the climate changes 
at a level that I think we should, although the NAACP devoted 
its entirely monthly magazine in July and August, special 
edition, in the Fight for Environmental Justice.
    But in terms of the grassroots people, do you have any 
suggestions on what this committee could do to try to raise the 
interest, the awareness of what is going on? Because they are 
victims, whether they know it or not.
    So can you give me some guidance on that, or not, please, 
either one of you.
    Mr. King. Clearly, the legislation that you will propose 
and ultimately pass is going to do a lot of that, or, I think, 
go a long way toward addressing that issue. It is, to me, 
beyond the NAACP; it is all of the organizations--certainly 
SCLC, Rainbow/PUSH, National Action Network, the Urban League.
    Collectively, it is also part of our responsibility to 
inform the community. I think people of color often are in a 
survival mode. While people know that these issues exist, it 
really is a matter of educating; and we really are depending on 
you, as our leaders, to be the voice to create the proper kind 
of legislation. Obviously, we will certainly do our part in 
terms of coming to continue to raise issues.
    But I think historically, our nation has just kind of--just 
like we would look at poverty. Now we finally realize in this 
nation that global warming is a crisis, I believe, even though, 
as you stated, maybe the administration has not admitted it.
    The moral leadership, I think, in the future--in the years 
to come there is going to have to be a new moral tone set as it 
relates to global warming and other issues, particularly 
poverty, which I and many have been working on. We are sort of 
in denial, and I don't think we have the luxury of denying 
anymore. This is the issue, front and center, that we have to 
address for our own personal survival.
    As I say, we as organizations, I am sure, are going to do 
our part, but we need legislation from you as Congresspersons.
    Ms. Gauna. Thank you, Congressman.
    In my experience, there hasn't been apathy. In fact, there 
has been a great deal of interest coming from community and 
community-based organizations. I do see a disconnect between 
that and the higher levels of government.
    To the extent that at this level you can put into 
legislation or policies, provisions for collaboration between 
community-based organizations and Federal and sub-Federal 
agencies, I think you have a real nice synergy there that has 
been unexplored and unharvested up until this point.
    I think--I am absolutely convinced the interest is there, 
but we just need a way to connect that. I could be more 
specific in a follow-up piece if you would like, on how to 
increase this level of collaboration that is necessary. I agree 
with you, it is absolutely necessary.
    Mr. Blumenauer. The gentleman from California.
    Mr. McNerney. Mr. Chairman, this panel has a very 
important, stark message. I have been hearing of global warming 
impacting peoples lives right now, here, today. It is a moral 
issue, and the northern communities and the island communities 
are being impacted, but no community is going to be immune in 
the future.
    There is a question here, though, that you spoke about, 
wind turbines and other forms of renewable energy, Mr. 
Williams. Is that impacting you in a positive way in terms of 
creating jobs more than the jobs that are created, say, by 
shipping in oil or diesel fuel or whatever forms of energy used 
before the renewable energy is being used?
    Mr. Williams. Well, currently, there are limited biomass 
efforts, and also wind turbines just recently showed up to our 
communities.
    But, clearly, it has created savings of energy costs to 
consumers and are very--so the poor in the country and the 
highest prices of energy due to transportation, et cetera. But 
I am seeing more jobs created in these communities that have 
wind turbines, and also the biomass is a local effort.
    Mr. McNerney. Professor Gauna, I would like you to address 
the same question. When you spoke, you talked more about the 
concern of liquid natural gas and other forms of traditional 
energy. Do you see the--how do you see that is stacking up 
against the positive impact of local forms of renewable energy, 
such as wind and solar, in various areas?
    Ms. Gauna. Are you talking about the positive impact, 
economically----
    Mr. McNerney. Yes.
    Ms. Gauna [continuing]. Or are you talking about the 
positive impact on health and so forth?
    Mr. McNerney. Economically.
    Ms. Gauna. Economically, one thing that I am seeing in my 
travels is, communities are saying, we need economic 
development. We are not antidevelopment. We need jobs, but we 
would like clean jobs.
    When you compare cleaner, not totally risk-free or 
pollution-free, but cleaner forms of renewable energy 
production versus the really heavy extractive industries--you 
know, coal bed methane, dewatering processes and so forth--that 
really degrade the environment, you will see a clear choice 
there; and communities, by and large, you know, would opt for 
the cleaner jobs that are provided by renewable energy sources.
    Mr. McNerney. Do you have a comment, Mr. King, on the 
economic impact of renewable energy?
    Mr. King. Well, I certainly wouldn't proclaim to be an 
expert, but I would certainly concur that I think people--for 
me, it really is information and education. Clearly, when 
people understand the impact, they will embrace, when you talk 
about new alternatives--even if we are talking about fuel 
sources, the kinds of things that are going to just make our 
environment a better place, I think people will embrace that. 
And, of course, because it does not exist--it would seem like 
today it does not exist enough--it seems like it would have 
another major economic impact. Anything that perhaps is new, it 
would seem to me, would not just create interest, but would 
create opportunity and options.
    Mr. McNerney. Thank you.
    Mr. Chairman, I yield back.
    Mr. Blumenauer. Mr. Hall.
    Mr. Hall. Mr. Chairman, thank you all for yourtestimony. I 
am sorry I was late getting here.
    But I just want to comment on the proliferation of 
polluting or industrial sites in areas where people of color 
are a large part of the population. I think it is also the--at 
times, just towns or regions or areas of little economic and 
political strength.
    In my district I have, for instance, a battery factory that 
just shut down and left behind a terrible, polluted lagoon and 
heavy metal contaminations and so on. It is not a minority 
ethnic group that lives there, it is a Caucasian, American 
small town that just happens not to be well off enough or 
perhaps educated enough about the environment to go out or to 
have the time.
    I think, as Mr. King said, you are trying to keep up, and 
it is hard to take care of your family and keep your head above 
water economically and still have time or money to hire lawyers 
and go to hearings and write letters and do all those things 
that other people with more resources are available to do.
    Turning to Mr. Williams and Mr. Abdulla, I am particularly 
interested in the specific things that could be done to 
mitigate or to adapt to your communities, and especially with 
the Maldives. We have a few parallels here in the United States 
that people who live there have not realized yet: the Outer 
Banks of the Carolinas, for instance, Hilton Head, Cape 
Hatteras, South Padre Island, Nantucket Island, which is mostly 
very low elevation. All of these places are going to be under 
water.
    If a worst-case scenario of climate change happens and sea 
levels rise, they will be facing the inundation that you will, 
but the difference is, they are close to the mainland of the 
United States, and they will be relatively easy, although 
expensive, and it will be a big dislocation for them and a 
financial loss for them, but they would be able to move inland.
    In Alaska, I assume Shishmaref moving inland and the other, 
Newtok, moving inland, confined to higher ground. Whereas the 
Maldives, you don't have higher ground to move to after a 
certain point.
    So the question is, what mitigation are you looking at, 
starting with Mr. Abdulla, in terms of, you know, is there a 
way to hold the sea back from your nation should the sea rise, 
be in the mid-to-higher level of what is projected?
    Mr. Abdulla. Thank you, Senator. Yes, indeed, there are 
ways that we can meet to greet the greenhouse impact. As I 
might say, you know, the increasing sea surface temperature 
threatens the very existence of our country, both economically 
and physically.
    The two industries, namely, the fisheries and the tourism, 
are going to be exhausted. The natural defense, sea defense of 
the coral reefs itself, is a natural protection as well as the 
economic factor.
    I think losing this is going to be--as I said in my 
statement, is going to be the death of a nation.
    In terms of mitigation, I also just want to tap in on that, 
there are clear ways and means that we can do something. For 
example, Sweden, Denmark, the UK are reducing emissions while 
growing their economies. The UK has reduced emissions while 
enjoying healthy economic growth. While among technologies 
that--are among the biggest export sectors, I think there are 
some very good examples that some of the Annex One countries 
are taking a lead on.
    I think, here, the Congress can sort of insist or justify 
within these examples, and with adaptation, motives have been 
adapting to climate change ever since. We have very clear 
directions, very clear proposals at the moment. It is high time 
that we start speeding implementation of this. Otherwise, we 
are seeing, witnessing every now and then the real impact of 
climate change and sea level rise.
    As I said in my statements, we don't have anywhere to go. 
It barely exceeds 1.5 meters above sea level. If the predicted 
sea level rises and exceeds, by the end of this century, we may 
face the demise of a nation.
    Mr. Hall. Thank you, Mr. Abdulla. My time has lapsed.
    In the past we have had a sister city program between 
cities in the United States and cities in other countries 
around the world. This might be an opportunity for us to 
establish the same kind of relationship where a city or an 
island or a community in the United States that is threatened 
by increased sea level or other climate change effects would 
partner with a country like yours and thereby share information 
and establish the identification needed to act, to get us to 
act together.
    With that, I yield back, Mr. Chairman. Thank you, Mr. 
Chairman.
    The Chairman [presiding]. I thank the gentleman from New 
York.
    The Chair will now recognize himself for a series of 
questions.
    You mentioned, Mr. King, your support for passing a bold 
energy program. What aspects of the proposed energy bill do you 
feel most directly strengthen the lives of the most vulnerable? 
Which part of the energy bill that we are now considering do 
you believe affects most significantly the lives of the most 
vulnerable?
    Which things in there do you believe are going to be most 
vulnerable in shifting our policy in a way that helps those who 
are vulnerable here and around the world?
    Mr. King. Well, I think, looking at it from a comprehensive 
standpoint, I probably would like to say that I need to get 
back to you on that.
    The Chairman. What role would the green college part of the 
bill play in a minority community, the parts of the bill that 
Congresswoman Solis is principally responsible for?
    Mr. King. Well, specifically, I think any time that you can 
create, you know, options for poor people, when we are talking 
about the jobs part of it, and also begin to reduce emissions, 
which is a huge, huge task, but something that I guess we--not 
guess, we have got to do, we have got to find a way to 
address--I guess, and I want to be direct, but I am not sure 
that I have all the information today.
    I can certainly, I can certainly get something back to you, 
though.
    The Chairman. Please, I would very much appreciate it.
    Mr. King. Okay.
    The Chairman. Professor Gauna, in your written testimony, 
you mentioned the success that some communities have had in 
brownfields development. Can we expand on what helped create 
those successes? What does the Congress need to do to help 
ensure that we can learn from these successes as we build a 
green energy future?
    Ms. Gauna. Thank you, Representative Markey. There was 
actually a study, I believe performed by the Environmental 
Protection Agency or the National Environmental Justice 
Advisory Council--I am not sure what--that looked at five areas 
that were high impact communities where there was brownfield 
development and kind of looked at those to see what happened.
    Interestingly enough, I know it sounds rather common, but 
the earlier you get that community in, give them independent 
technical review of the proposals, they are able to suggest 
very interesting options to deal with some of the higher 
impacts.
    The problem that we see from my end of it is that 
permitting officials are very hesitant to use legal authority 
to address environmental justice issues. So just having the 
legal authority there, having a signal, a strong signal from 
Congress, to promote early participation, to give resources, to 
require heavy, heavy public participationrequirements in siting 
and permitting is going to create the synergies that are needed to help 
resolve the problems on a site-specific level.
    These problems differ with the nature of the enterprise, so 
I apologize. I can't be any more specific than that.
    The Chairman. I appreciate that.
    Ms. Gauna. Okay.
    The Chairman. Let me ask you, Mr. Williams, and you, Mr. 
Abdulla, what are the financial costs that we are talking 
about? What is the scale of financial resources that is going 
to be necessary, for example, to relocate the tribes up in 
Alaska? You know, there are obscene estimates of $100 million 
to $400 million per community in order to relocate them inland.
    Can you give us some scale of what the totality of this 
financial cost to our country will be in order to protect----
    Mr. Williams. Well, I would agree to some of the 
projections, at least $100 million per community.
    When you talk about 150 communities that are going to be 
passed down the road in the next 50 to 100 years, it is going 
to have extra, insurmountable costs to our government, which 
has trust responsibility to the tribes to deliver that--to deal 
with those communities.
    Senator Stevens just had a hearing on erosion problems. It 
is going to have a huge cost to the Federal Government if we 
don't begin to start addressing this issue right now. And that 
is why I enthusiastically came here to testify, to make sure 
that this is a top priority.
    The Chairman. Is it fair to say then, Mr. Williams, that it 
will cost the Federal Government billions of dollars to 
relocate the tribes in Alaska unless we put in place the 
policies that don't necessitate having to relocate the tribes?
    Mr. Williams. Yes.
    The Chairman. Billions of dollars?
    Mr. Williams. Billions of dollars.
    The Chairman. When people say we can't afford to put in 
these measures, the fact is we can't afford not to. The costs 
are going to be staggering to our country.
    Mr. Abdulla, can you talk a little bit about the financial 
costs to your country?
    Mr. Abdulla. Thank you, Representative Markey, Mr. 
Chairman.
    The cost of relocation and the cost of coastal protection, 
if we are to look at the cost of relocating a family of six 
people, we are talking about $500,000 to $800,000 U.S., per 
family. The cost of coastal protection is $4,000 to $5,000 
U.S., per linear meter.
    The Chairman. In other words, in order to build protection 
around an island, it costs----
    Mr. Abdulla. Yes, if I may say, the cost of the protection 
of the capital island, Male, which I guess is about 9 to 10 
kilometers, the total cost of the project was about $130 
million U.S. That is only the cost of one island. If we are to 
save about 50 islands, we are talking about $2 billion U.S.
    The Chairman. Does the Maldives have $2 billion?
    Mr. Abdulla. No.
    The Chairman. So it would be the international community 
that would be asked to commit, to help?
    Mr. Abdulla. That is true. That is why I have highlighted 
the importance of the speedy implementation of our national 
plan of action. It is highly important, and we are doing the 
most that we can do. We can incorporate that into our national 
implementation plans. We are spending from our national budgets 
annually--and the speed of it is that we can't wait until the 
waves are hitting the communities. And we have seen every 
monsoon, the enormous amount of devastation to the communities, 
and it is daily.
    I am one of them who witness daily, and I visit these 
communities. They are really, really in deep trouble. If we are 
not to save them, I don't know--I mean, they are going to be--
--
    The Chairman. Thank you, sir. Thank you for cominghere. My 
time has expired.
    The Chair recognizes the gentleman from Washington State, 
Mr. Inslee.
    Mr. Inslee. Thank you.
    Thank you for being here.
    I want to ask Mr. Williams, as far as short-term relief, I 
have seen that folks in Shishmaref have voted to move to Tin 
Creek, as I understand it, and they have millions of dollars of 
relocation costs.
    What, in the short term, is the most feasible way to 
actually help--for the Federal Government to help that 
relocation effort? Is it a specific bill? Is it a grant? Is it 
an earmark? What is the best thing for us to consider?
    Mr. Williams. Well, I think the best thing for you to 
consider right now is to make sure that the policy in 
greenhouse gas emissions is reduced immediately. I think that 
human beings can do some action right now to prevent further 
erosion, and if we don't take any action right now, as human 
beings that are causing this problem--I think we can save many 
millions of dollars down the road, but it has to be--action has 
to be now.
    But in terms of short-term solutions, I think the Federal 
Government needs to hold extensive hearings on each community. 
Each community has different issues to deal with, and those 150 
to 180 communities in Alaska, I think, have different solutions 
to each issue.
    So I think it would be a short-term solution to travel up 
there and to meet with each community on how they are going to 
deal with the issue of short-term solutions.
    Mr. Inslee. Has any thought been given of establishing a 
fund that--I am just sitting here thinking, stream of 
consciousness, if we are really going to have to start thinking 
about relocating communities, should we give some thought to a 
specific fund for that purpose for multiple communities?
    Mr. Williams. Yes. I think it is urgent, and we are just, 
you know, existing there.
    You know, I think the Federal Government--I realize it has 
trust responsibility to the tribes of this Nation, and I think 
some sort of fund would be of great help, to help down the 
road, and it is going to be affecting us in the long term; and 
moving schools and moving homes and health facilities is going 
to be enormous, roads, et cetera.
    But the threat is real, and it is right in our face right 
now, and we need to have action plans right now so we can avoid 
more costs down the road.
    Mr. Inslee. By the way, by asking these questions, I don't 
mean to imply that we don't need to stop this from happening in 
taking proactive measures; I have been working with the Chair 
and folks on this committee to do that.
    I believe we can do that. There is a book called Apollo's 
Fire out there that talks about what we could do to stop this 
from happening. I know, because I helped coauthor it. So I know 
that we can do this.
    But the problem is that there is so much of this that is 
locked into the system already. Even if we stop today 
CO<INF>2</INF> pollution, we are going to have a lot of damage 
that we have to deal with.
    So I am interested in any further thoughts you have at any 
time about how to move forward on a fund like this. I would 
like to hear them. I am sure there are others as well.
    I want to thank you for being here. Thank you.
    The Chairman. Great. The gentleman's time has expired.
    Here is what I am going to ask each of you to do. Give us 
the 1 minute, the 1 minute you want us to remember, as we are 
going forward to the end of this year on the energy bill and 
then on to the cap and auction and trade bill that we will be 
considering next year.
    We will begin with you, Mr. Abdulla. What do you want us to 
remember?
    Mr. Abdulla. Thank you, Representative Markey.
    I want you to remember that please don't let thevoice of 
the most vulnerable country on the face of the planet to go unheard, 
that we remain as a sovereign state, and none of the Maldives will want 
to be environmental refugees unless, otherwise, we are forced to.
    Bear in mind that--please, help us to be--as a sovereign 
state, not to be a victim from the global warming and climate 
change.
    Thank you.
    The Chairman. Thank you, Mr. Abdulla.
    Mr. Williams.
    Mr. Williams. One thing that I would like for you to 
remember is alternative energy is the way to go. I think we 
have seen enough of producing in vulnerable areas of the world. 
In energy production, I think we need to capture the wind, the 
solar, the biomass. The other alternative energy is reducing 
greenhouse gas emissions from automobiles, power companies, et 
cetera.
    I think there are other ways of addressing this issue, and 
I want you to remember clearly that more development in 
vulnerable areas that are very important to our environment and 
to our existence is very important to me.
    The Chairman. Thank you, Mr. Williams.
    Professor Gauna.
    Ms. Gauna. I would like to leave you with the thought that 
as we build our new, cleaner energy infrastructure, which we 
must, that a simple requirement that impacts the vulnerable 
communities should be avoided, minimized or mitigated to the 
extent feasible, together with requirements for alternative 
site analyses, can go a long way to inject common sense and 
protectiveness into a permitting process. This is going to 
avoid a lot of problems down the road.
    Thank you.
    The Chairman. Thank you, Professor.
    Mr. King.
    Mr. King. Mr. Chairman, I would just like to add a caveat, 
I guess, to what Mr. Williams stated. That is that clearly 
today most consumers do not have a choice as it relates to 
whether it is fuel for your automobile or whether it is heating 
oil for your home. We need more choices.
    The new sources of energy that can be produced will create 
jobs and opportunities for people in our Nation and perhaps an 
entire new economy, a clean economy.
    I just want to add my voice to the voice of all those who 
believe consumers need choices, clean choices, better choices.
    The Chairman. Thank you.
    We thank you, Mr. King. We thank all of panelists. Many of 
you have come a long, long way to be testifying here with us 
today.
    The Select Committee very much appreciates the effort that 
you have made. We want you to know that this testimony today is 
going to play a big role in the way in which our committee 
views this bill that is now pending in the next 6 to 8 weeks 
before the House of Representatives and the Senate.
    It is a powerful, powerful thing to hear the kind of 
testimony that you delivered today, and it is going to make a 
big difference before the end of this year. We thank you.
    With that, this hearing is adjourned.
    [Whereupon, at 12:40 p.m., the committee was adjourned.]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    

</pre></body></html>
